HHS/OIG, Audit -"Review of Improper Payments Made by Medicare Part B for Services Covered Under the Part A Skilled
Nursing Facility Prospective Payment System in Calendar Years 1999 and 2000,"(A-01-02-00513)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Improper Payments Made by Medicare Part B for Services Covered
Under the Part A Skilled Nursing Facility Prospective Payment System in Calendar Years 1999 and 2000," (A-01-02-00513)
May 28, 2004
Complete
Text of Report is available in PDF format (415 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The report points out that Medicare paid twice for the same service--once to a skilled nursing facility (SNF) under the
Medicare Part A prospective payment system (PPS) and again to an outside supplier under Medicare Part B. Under current
law a skilled nursing facility (SNF) is reimbursed a prospective payment for covered services (consolidated billing) rendered
to its Medicare beneficiaries in a Part A stay. Outside providers and suppliers must bill the SNF (not Medicare Part B)
for most services and supplies provided. The potential improper payments to Part B providers and suppliers totaled $108.3
million.  Moreover, the beneficiaries of these services may have incurred unnecessary charges of $33.1 million in
coinsurance and deductibles.  This problem occurred because adequate controls had not been established at SNFs or
suppliers to prevent improper billing of Medicare for Part B services included in the Part A SNF payment rate.  Among
other things, OIG recommended recovery of the improper payments, and that CMS instruct its contractors to encourage SNFs
and suppliers to establish and/or enhance billing controls.